No.

IN THE
SUPREME COURT OF THE UNITED STATES

BRET DAVIS

- PETITIONER

VS
APPELLATE COURT OF ILLINOIS,
FOURTH JUDICIAL DISTRICT, et at.. — RESPONDENTS
PROOF OF SERVICE
I

Bret Davis

^V i S

----------- do swear or declare that on this date,

. 2oTT as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to tne above proceeding
or the party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed
to each of them and with firstclass postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Hon. Carla Bender. Clerkofthe APr idlate Court. Fourth District. 2m Wpst Mnnmo
P.O. Box
19.206, Springfield. IL. 62704-0206
Mr. David J. Robinson, Deputy Director. State's Attomp
Appellate Prosecutor. 725 South SernnH gt
Springfield. IL. 62704
Mr. Kwame Raoul, Attorney General. 100 W Randolph St

12th Floor. Chicago. IL. 6nfim

MEcGreg Minger, Woodford County, State’s Attorney, m N Main St

Room 30g. Eureka. TI.

I declare under penalty of peijury that the forgoing is true and correct.
Executed on

,2021

Pro Se

